                              CLOSEOUT FOR M9 1 110042

                                                                                    October 29,

the Directorate                                    informed OIG that he had received a letter

submitted by




    OIG compared the subject's and the complainant's proposals and found that the subject had
served as a peer reviewer for the complainant's proposal. Four passages of the subject's
proposal contain text that is similar to that found in four passages in the complainant's proposal.
The subject's proposal also contains two phrases that are identical to phrases in the complainant's
proposal.

     When contacted by OIG the subject stated that he had reviewed the complainant's proposal,
but it is his standard practice to immediately discard proposals after he has reviewed them. He
pointed out that his proposal was submitted over a year after the complainant's proposal had been
submitted to NSF. He stated that he had not violated the confidentiality of peer review, that he
had not plagiarized the complainant's proposal, that the ideas in his proposal were independently
developed, and that some of the similar phrases were technical descriptions that permitted little
stylistic latitude. He also attributed the similarities in the two research proposals to the
independent efforts of two investigators in a newly defined research area described by a limited
number of scientific publications. He provided copies of two of these publications in which he
had highlighted selected passages to show their similarity to some of the OIG-identified passages
in the subject's and the complainant's proposals. The passages in the proposals contained
references to these publications.

    OIG reviewed the materials provided by the subject and concluded that, though some of the
similarities between passages in the two proposals have not been explained, there was insufficient
evidence to pursue these allegations further in an investigation. This case was closed without a
finding of misconduct.




Staff Scientist, Oversight



                                            Page 1 of 2


                                                91-VJ
               3:+
Concurrence: 5:.




                                                                   7*uL=-           6/7/73
                                                   James J. ~ & l e &
                                                    Y


Donald E. Buzzelli uV
Deputy Assistant Inspector General,                Assistant inspector General for Oversight
Oversight




~ o n g o m e r yFisher, Ph. D.
Counsel to the Inspector General



cc:    Assistant Inspector General for Oversight
       Inspector General




                                         Page 2 of 2
